                                                                   Issue Date
                                                                            July 23, 2007
                                                                   Audit Report Number
                                                                            2007-CH-1011




TO:         Thomas S. Marshall, Director of Public Housing Hub, 5DPH


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Indianapolis Housing Agency, Indianapolis, Indiana, Lacked Adequate
           Controls over Expenses Charged to Its Section 8 Program

                                    HIGHLIGHTS

 What We Audited and Why

             We audited the Indianapolis Housing Agency’s (Agency) Section 8 Housing
             Choice Voucher program (program). The audit was part of the activities in our
             fiscal year 2007 annual audit plan. We selected the Agency based upon our
             analysis of risk factors relating to the housing agencies in Region V’s jurisdiction.
             The objective of the audit was to determine whether the Agency appropriately
             used its program funds in accordance with the U.S. Department of Housing and
             Urban Development’s (HUD) requirements. This is the first of two audit reports
             on the Agency’s program.

 What We Found

             The Agency failed to comply with HUD’s requirements and its cost allocation
             plan regarding the allocation of administrative expenses. It did not document its
             initial allocation analysis in 2005, base allocations on actual historical data, or
             update its allocation percentages for 2006. Based on our review of administrative
             expenses for the period January 1, 2005, to November 30, 2006, the Agency used
             its restricted program administrative fees (fees) to pay more than $1.6 million for
             expenses that exceeded the program’s reasonable fair share, allocated expenses
             that were unrelated to the program’s operation, and lacked documentation to
             support expenses incurred. Based on our review, we estimate that over the next
           year the Agency will use more than $855,000 in fees for expenses not related to
           its program.

What We Recommend

           We recommend that the director of HUD’s Cleveland Office of Public Housing
           require the Agency to reimburse its program administrative fee reserve for the
           improper use of fees, provide documentation to support the reasonableness of the
           allocation of vehicle costs to its program or reimburse its program administrative
           fee reserve from nonfederal funds for the improper use of fees, and implement
           adequate procedures and controls to ensure that the Agency uses an appropriate
           basis for allocating administrative expenses to its program and that adequate
           expense documentation is maintained.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our review results and supporting schedules to the director of
           HUD’s Cleveland Office of Public Housing and the Agency’s executive director
           during the audit. We provided our discussion draft audit report to the Agency’s
           executive director, its board chairman, and HUD’s staff during the audit. We held
           an exit conference with the executive director on June 26, 2007.

           We asked the executive director to provide comments on our discussion draft
           audit report by July 16, 2007. The executive director provided written comments,
           dated July 17, 2007. The Agency generally agreed with our finding and
           recommendations with the exception of the administrative building rent costs.
           The complete text of the written comments, along with our evaluation of those
           comments, can be found in appendix B of this report.




                                            2
                            TABLE OF CONTENTS

Background and Objective                                                       4

Results of Audit
      Finding: Controls over Administrative Cost Allocation Were Inadequate    5

Scope and Methodology                                                          9

Internal Controls                                                             10

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use          12
   B. Auditee Comments and OIG’s Evaluation                                   13
   C. Federal Requirements                                                    20




                                             3
                      BACKGROUND AND OBJECTIVE

The Indianapolis Housing Agency (Agency) is a nonprofit governmental entity created by the
City of Indianapolis, Indiana (City), under State of Indiana law in 1964 to provide decent, safe,
and sanitary housing. The Agency became a division of the City’s Department of Metropolitan
Development on January 1, 1986. It was separated as an independent organization in December
1994 but still operates with oversight by the Metropolitan Development Committee of the
combined City and Marion County, Indiana (City/County), government. The Agency’s
jurisdiction encompasses Marion County, Indiana. A nine-member board of commissioners
governs the Agency. The City’s mayor appoints five board members, the City/County council
appoints two members for four-year staggered terms, and the Agency’s resident council appoints
two board members for one-year terms. The Agency’s executive director is appointed by the
board of commissioners and is responsible for coordinating established policy and carrying out
the Agency’s day-to-day operations.

The Agency administers a Section 8 Housing Choice Voucher program (program) funded by the
U.S. Department of Housing and Urban Development (HUD). The Agency provides assistance
to low- and moderate-income individuals seeking decent, safe, and sanitary housing by
subsidizing rents with owners of existing private housing. As of April 25, 2007, the Agency had
5,638 units under contract with annual housing assistance payments totaling more than $29
million in program funds.

Our objective was to determine whether the Agency appropriately used its program funds in
accordance with HUD’s requirements. This is the first of two audit reports on the Agency’s
program.




                                                4
                                 RESULTS OF AUDIT

Finding: Controls over Administrative Cost Allocation Were
                            Inadequate
The Agency failed to comply with HUD’s requirements and its cost allocation plan regarding the
allocation of administrative expenses. Between January 1, 2005, and November 30, 2006, it
used restricted program administrative fees (fees) to pay more than $1.6 million for expenses that
exceeded the program’s reasonable fair share, allocated expenses that were unrelated to the
program’s operation, and paid unsupported expenses. This noncompliance occurred because the
Agency lacked adequate procedures and controls to ensure that HUD’s requirements and its cost
allocation plan were appropriately followed. As a result, fees of more than $1.6 million were not
used to benefit the Agency’s program. Based on our review, we estimate that over the next year
the Agency will use more than $855,000 in fees for administrative expenses not related to its
program.


 Unsupported Allocation of
 Administrative Expenses

               The Agency lacked documentation to support how it determined the basis for its
               2005 cost allocation plan and why the same allocation basis was continued for
               2006. The Agency’s executive director said the methodology for the allocation
               plan was developed by the former finance director who left the Agency in 2003.
               The executive director and the Agency’s controller could not provide
               documentation to support the plan or how the allocation percentages were
               determined. Further, the Agency lacked documentation to support why the cost
               allocation plan for 2005 was used for 2006. As a result, it used program fees to
               pay: excessive costs totaling $1,636,075 ($37,176 of building rent, $24,381 of
               vehicle costs, $615,477 of salary and fringe benefit costs, and $959,041 of
               miscellaneous administrative costs), $4,243 of costs unrelated to its program, and
               unsupported expenses of $10,545 related to its vehicle maintenance.
               Additionally, we estimate that the Agency’s program will save $855,818
               ($1,636,075 plus $4,243 divided by 23 months times 12) over the next year by
               improving its allocation of expenses for its program.

 Excessive Administrative
 Building Rent

               The cost allocation plan provided for most indirect costs to be allocated between
               the Agency’s Section 8 and Public Housing programs based on their budgeted
               number of direct labor employees on the first day of each calendar year. The
               exceptions cited were administrative office building rent, audit costs, and postage.
               The administrative office building rent was to be allocated based on square

                                                5
           footage occupied by the programs. The plan, which they did not follow,
           recommended allocating 65 percent and 35 percent to the Section 8 and Public
           Housing programs, respectively.

           The Agency provided an analysis of its administrative office building’s square
           footage showing that the program should have been charged 56.13 percent.
           Between January 1, 2005, and November 30, 2006, the program paid $591,871 in
           allocated expenses for the administrative office building rent, or 59.9 percent of
           the $988,233 of building rent. The program should have paid $554,695 based
           upon the 56.13 percent of direct space it occupied. The incorrect allocation of the
           administrative office building rent resulted in the program being overcharged by
           $37,176.

Program Overcharged for
Vehicle Costs

           The Agency’s plan stated that indirect costs, including vehicle costs, should be
           allocated 50 percent each to its Section 8 and Public Housing programs because
           there were 62 program staff and 65 Public Housing staff. In January 2005 and
           2006, program staff totaled nearly 34 percent and 39 percent of the total agency
           staff, respectively. The Agency has vehicles assigned to all departments, not just
           its program and Public Housing.

           Between January 1, 2005, and November 30, 2006, the Agency incurred $213,870
           in expenses for fuel, maintenance, and car washes for its vehicles. The program
           paid $65,566 ($32,394 for direct costs plus $33,172 for indirect costs). The
           Agency lacked documentation to support $10,545 for direct vehicle costs paid and
           overcharged its program $24,381 for indirect vehicle costs based upon the
           percentage of the Agency’s program staff. The Agency used program fees to pay
           $33,172 ($24,438 for 2005 and $8,733 for 2006) when it should have paid $8,791
           ($2,282 for 2005 and $6,508 for 2006), an overpayment of $24,381.

Overcharged for Salary and
Fringe Benefits


           The Agency overcharged its program $615,477 for indirect salary and fringe
           benefit expenses. For the period, January 1, 2005, through November 30, 2006, it
           charged more than 67 percent of its salary and fringe benefit costs ($1,337,831 of
           $1,980,485) to its program when the program staff averaged 34 percent ($340,237
           of $1,000,698) and 39 percent ($382,117 of $979,787) at January 2005 and 2006,
           respectively. As previously mentioned, the Agency’s cost allocation plan stated
           that indirect costs should be allocated 50 percent each to its Section 8 and Public
           Housing programs because there were 62 Section 8 staff and 65 Public Housing
           staff for the budget year 2005. However, the plan also provided for most indirect
           costs to be allocated between the Agency’s Section 8 and Public Housing
           programs based on their budgeted number of direct labor employees on the first

                                            6
             day of each calendar year. The Agency’s computer system automatically
             allocated 67 percent of the salary and fringe benefit costs to its program based
             upon a previous ratio of program to public housing units. The system was never
             adjusted because the Agency did not update the system to agree with its plan. In
             addition, the Agency never updated its plan to account for annual changes in
             employee levels or departments affected by the indirect costs.

Excessive Miscellaneous
Administrative Costs

             For the 23-month period of January 1, 2005, through November 30, 2006, the
             Agency overcharged its program $959,041 for excessive other administrative
             expenses such as, legal counsel contracts, staff training, travel, administrative
             benefits, advertising and marketing, communications, technical services, office
             supplies, resident activities, utilities, public service salaries, and agency insurance.
             The overcharges occurred because the Agency did not update its plan to reflect
             the number of direct labor employees for its Section 8 and Public Housing
             programs on the first day of each calendar year. Further, the Agency used
             program fees to pay $4,243 for bond debt service fees for its Public Housing
             bonds issued that were unrelated to the operation or funding of its program.

Conclusion


             The Agency did not comply with HUD’s requirements and its cost allocation plan
             regarding the allocation of program administrative expenses. Between January 1,
             2005, and November 30, 2006, it paid for expenses that exceeded the program’s
             reasonable fair share, allocated expenses that were unrelated to the operation of its
             program, and paid unsupported expenses. This occurred because the Agency
             lacked adequate procedures and controls to ensure that HUD’s requirements and
             its cost allocation plan were appropriately followed.

Recommendations

             We recommend that the director of HUD’s Cleveland Office of Public Housing
             require the Agency to

             1A.    Reimburse its program administrative fee reserve $1,636,075 from the
                    appropriate funds for the excessive administrative expenses cited in this
                    finding.

             1B.    Provide supporting documentation or reimburse its program administrative
                    fee reserve $10,545 from nonfederal funds for the unsupported direct
                    vehicle costs cited in this finding.




                                                7
1C.   Reimburse its program administrative fee reserve $4,243 from nonfederal
      funds for the bond debt service fees paid from program fees cited in this
      finding.

1D.   Implement adequate procedures and controls to annually develop and
      support a cost allocation plan in accordance with HUD’s requirements and
      ensure expenses comply with its cost allocation plan. By implementing
      adequate procedures and controls, the Agency should help ensure that
      $855,818 in fees is appropriately used.




                               8
                      SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

              •   Applicable laws; regulations; the Agency’s program administrative plans
                  effective October 2005 and June 2006; and HUD’s program requirements at 24
                  CFR [Code of Federal Regulations] Parts 5, 35, 982, and 984; HUD’s Public
                  and Indian Housing Notices 2004-12, 2005-1, 2005-9, 2006-3, and 2006-5; and
                  HUD’s Housing Choice Voucher Guidebook 7420.10.

              •   The Agency’s accounting records; annual audited financial statements for 2003,
                  2004, and 2005; general ledgers; bank statements and cancelled checks;
                  computerized databases; policies and procedures; board meeting minutes for
                  2005 and 2006; organizational chart; and program annual contributions contract.

              •   HUD’s files for the Agency.

We also interviewed the Agency’s employees and HUD staff.

We reviewed the Agency’s general ledgers and supporting documentation including invoices for
more than $3.6 million in administrative costs charged to the program between January 1, 2005,
and November 30, 2006. We analyzed the basis by which the costs were allocated to the
program and compared those costs with what should have been charged using available historical
data such as square footage occupied or direct staff costs. Unless the Agency improves its
administrative cost allocation calculation process, we estimate that it could incorrectly expend
more than $855,000 in restricted program administrative fees for future administrative expenses.
This estimate is presented solely to demonstrate the annual amount of fees that could be put to
better use if the Agency implements our recommendation. While these benefits would recur
indefinitely, we were conservative in our approach and only included the initial year in our
estimate.

We performed our on-site audit work between October 2006 and May 2007 at the Agency’s
central office located at 1919 North Meridian Street, Indianapolis, Indiana. The audit covered
the period from January 1, 2005, through September 30, 2006, but was expanded when necessary
to include other periods.

We performed our audit in accordance with generally accepted government auditing standards.




                                                9
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               10
Significant Weakness

           Based on our review, we believe the following item is a significant weakness:

           •      The Agency lacked adequate procedures and controls to ensure
                  compliance with HUD’s requirements and its cost allocation plan
                  regarding the allocation of program expenses (see finding).




                                            11
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

          Recommendation                                              Funds to be put
              number            Ineligible 1/        Unsupported 2/    to better use 3/
                 1A              $1,636,075
                 1B                                         $10,545
                 1C                    4,243
                 1D                                                         $855,818
                Totals           $1,640,318                 $10,545         $855,818


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In this instance, if the Agency implements our
     recommendation, it will cease to incur program costs for excessive expenses or expenses
     not related to its program and, instead, will expend its fees in accordance with HUD’s
     requirements. Once the Agency successfully improves its controls, this will be a
     recurring benefit. Our estimate reflects only the initial year of this benefit.




                                                12
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




                         13
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         14
Ref to OIG Evaluation   Auditee Comments




                         15
Ref to OIG Evaluation   Auditee Comments




Comment 2




                         16
Ref to OIG Evaluation   Auditee Comments




                         17
Ref to OIG Evaluation   Auditee Comments




                         18
                         OIG Evaluation of Auditee Comments

Comment 1   The OIG is extremely appreciative of the Agency’s joint efforts with our Office of
            Investigations to address program fraud. The Agency was commended earlier this
            year by OIG’s Office of Investigations for its continued commitment to
            combating housing fraud.

Comment 2   We analyzed the administrative building rent charged to the Agency’s program by
            using its general accounting ledgers provided to us for the period in question.
            While the Agency may have mistakenly provided incorrect documents for the
            administrative building rent during the audit, the Agency did not provide any
            supporting documentation with its written response.




                                            19
Appendix C

                           FEDERAL REQUIREMENTS

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.153 state that the public
housing authority must comply with the consolidated annual contributions contract, the
application, HUD regulations and other requirements, and its program administrative plan.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.158(a) state that the public
housing authority must maintain complete and accurate accounts and other records for the
program in accordance with HUD requirements in a manner that permits a speedy and effective
audit.

HUD’s program annual contributions contract with the Agency, dated August 22, 1996, contains
provisions relating to the use of program funds. Section 11(a) states that program receipts may
only be used to pay program expenditures.

HUD Handbook 7420.6, “Housing Assistance Payments Program Accounting Handbook,”
chapter 5, paragraph 5-24(c), states that if the public housing agency is administering other low-
income housing programs or enterprises other than housing assistance payments programs and
certain costs are applicable to other than the housing assistance payments program, it will be
necessary to prorate such costs to charge the housing assistance program with its applicable
portion of the costs. The public housing agency shall maintain appropriate schedules and work
sheets showing how the allocation of costs was made.

Notice PIH [Public and Indian Housing] 2005-1, issued December 8, 2004, “Implementation of
the Consolidated Act (HR4818 - House report 108-792), 2005 Funding Provisions for the
Housing Choice Voucher Program,” part 5, states that the Act stipulates that administrative fees
provided from this appropriation shall only be used for activities related to provision of Section 8
tenant-based rental assistance, including related development activities.

Notice PIH 2006-5, issued January 13, 2006, “Implementation of the 2006 HUD Appropriations
Act (Public Law 109-115),” part 6(d), states that the 2006 Appropriations Act stipulates that
administrative fees must only be used for activities related to provision of Section 8-based rental
assistance.

In accordance with HUD’s requirements, the Agency must only charge its program with costs
directly incurred for operating the program and its prorated fair share of joint costs incurred for
operating the program and the other low-income housing programs. Any allocations of joint
costs that exceed the program’s fair share are excessive and not eligible.




                                                 20
